Audit Report




OIG-11-030
SAFETY AND SOUNDNESS: Failed Bank Review of Home
National Bank
November 16, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           November 16, 2010


            OIG-11-030

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Home National Bank


            This memorandum presents the results of our review of the failure of Home
            National Bank (Home), of Blackwell, Oklahoma. Home opened in 1933 as First
            National Bank and Trust Company and adopted its current name in 1997. Its main
            office was in Blackwell, Oklahoma, and it had 14 branches in south central Kansas,
            north central Oklahoma, and the area around Phoenix, Arizona. The bank was a
            wholly-owned subsidiary of HNB Corporation, a holding company located in
            Arkansas City, Kansas. The Office of the Comptroller of the Currency (OCC) closed
            Home and appointed the Federal Deposit Insurance Corporation (FDIC) as receiver
            on July 9, 2010. As of March 31, 2010, the bank had $644.5 million in total
            assets. FDIC estimated that the loss to the Deposit Insurance Fund is $78.7 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Home that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
            (3) interviewed an OCC problem bank specialist and examination personnel.

            We conducted this performance audit in September 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.
OIG-11-030
Page 2

Causes of Home’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank had
experienced substantial dissipation of assets or earnings due to unsafe and unsound
practice, (2) the bank was in an unsafe and unsound condition to transact business,
and (3) the bank’s capital had been severely impaired.

The primary causes of Home’s failure were its aggressive growth strategy that
focused on commercial real estate loans (CRE), and the lack of appropriate risk
controls to support the growth strategy. For example, Home did not have
concentration limits for loans by type, purpose, geography, or other meaningful
factors; and did not assign accurate risk ratings. In addition, in 2009, Home’s senior
management failed to administer the bank’s loan portfolio in a safe and sound manner
by discouraging or stopping Home’s employees from identifying problem credits in a
timely manner or obtaining updated or current financial information or collateral
valuations. These actions, considered egregious by OCC, inflated earnings and capital
levels by delaying the recognition of losses and expenses. By December 31, 2009,
Home’s asset quality, capital, and earnings were critically deficient which ultimately
led to its failure


Conclusion
Based on our review of the causes of Home’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Home’s
failure and that it had no concerns with our determination that an in-depth review
of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-030

       Attachment 1
Management Response
                                                   OIG--11-030

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
